 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission's 

  Fiscal Year 2005 Financial Statements 





               November 2005 

           ASSIGNMENT OIG-05-0 1 

                 FEDERAL ELECTION COMMISSION
                 WASHINGTON, D.C.20463




Office of Inspector General

MEMORANDUM

TO:           The Commission

FROM:         Inspector General

SUBJECT:      Audit of the Federal Election Commission's Fiscal Year 2005 Financial
              Statements

DATE:         November 10,2005

This letter transmits the final audit report of the Federal Election Commission's (FEC) fiscal
year (FY) 2005 financial statements. In accordance with the Accountability of Tax Dollars
Act of 2002, the FEC prepared financial statements in accordance with Office of Management
and Budget (OMB) Bulletin No. 01-09, Form und Content of Agency Financial Statements, as
amended, and subjected them to audit.

The Chief Financial Officers Act of 1990 (Public Law 101-576, commonly referred to as
the "CFO Act"), as amended, requires the FEC Office of Inspector General (OIG), or an
independent external auditor as determined by the Inspector General, to audit the agency
financial statements. Under a contract monitored by the OIG, Clifton Gunderson LLP (CG­
LLP), an independent certified public accounting firm, performed the audit of the FEC's FY
2005 financial statements.

The OIG commends the FEC for the accomplishment of completing the fiscal year 2005 on
time this year. The Inspector General acknowledges the significant challenge of meeting the
accelerated due date of the annual financial statement audit required by OMB.

Audit Process
CG-LLP conducted the audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Govern~nent
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 01-02, Audit Requiren~ents for Federal Financial Statements, as amended. The results of
the financial statement audit are detailed in three reports: report on compliance with laws and
regulations; report on internal control; and the opinion on the financial statements.

Report on Cornpliance with Laws and re nu la ti on^
FEC management is responsible for complying with laws and regulations applicable to the
agency. To obtain reasonable assurance about whether FEC's financial statements are free of
material misstatements, CG-LLP performed tests of compliance with certain provisions of
laws and regulations, non-compliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain laws and regulations specified in OMB
Bulletin No. 01-02, such as the Anti-Deficiency Act and the Prompt Payment Act.

The results of CG-LLP's tests of compliance with laws and regulations described in the audit
report disclosed no instances of noncompliance with the laws and regulations that are required to
be reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Report on Internal Control
CG-LLPYsplanning and performance of the audit included consideration of the FEC9sinternal
control over financial reporting. The CG-LLP auditors obtained an understanding of the FEC's
internal control; determined whether internal controls had been placed in operation; assessed
control risk; and performed tests of controls in order to determine auditing procedures for the
purpose of expressing an opinion on the financial statements. The auditors limited their internal
control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02 and consequently CG-LLP did not provide an opinion on internal control.

Internal control as it relates to the financial statements, is a process, affected by agency's
management and other personnel, designed to provide reasonable assurance of the following:
( I ) transactions are properly recorded, processed, and summarized to permit preparation of the
financial statements and assets are safeguarded against loss from unauthorized acquisition, use
or disposition; (2) transactions are executed in accordance with laws governing the use of budget
authority and other laws and regulations that could have a direct and material effect on the
financial statements and other laws and regulations identified by OMB; and (3) transactions and
other data that support reported performance measures are properly recorded, processed, and
summarized to permit the preparation of performance information in accordance with criteria
stated by management.

In performing the testing of internal control necessary to achieve the objectives in OMB Bulletin
No. 01-02, the auditors identified matters relating to significant deficiencies in the design or
operation of FEC's internal control. The testing of internal control identified both reportable
conditions and material weaknesses. The American Institute of Certified Public Accountants
(AICPA) categorizes reportable conditions as matters relating to significant deficiencies in the
design or operation of the internal control, which in the judgment of the auditor, could adversely
affect the agency's ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements in amounts that would be
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned
functions.

CG-LLP identified material weaknesses in the areas of:

        Cost Accounting System and Processes 

        Administrative Fines, Civil Penalties and Miscellaneous Receipts 

        General Property and Equipment 

        Information Technology 


CG-LLP identified reportable conditions, not considered to be material weaknesses, which
include the following:

        Financial Reporting 

        Payroll 


   ..
Q~lnlonon the Financial Statements
CG-LLP audited the balance sheets of the FEC as of September 30,2005 and 2004, and the
related statements of net cost. changes in net position, budgetary resources, financing, and
custodial activity for the years then ended. In the repoit dated November 7,2005, CG-LLP
issued a qualified opinion on the FEC's financial statements.

In fiscal year 2005, the FEC was late in providing cost information to support the allocation of
program costs reported on the statement of net cost. As a result, adequate time did not remain to
obtain sufficient competent evidential matter and apply auditing procedures necessary to conduct
the audit in accordance with the standards and OMB audit guidance mentioned above.

In the independent auditor's opinion, except for the effects of such adjustments to the fiscal year
2005 statement of net cost. if any, as might have been necessary had the auditors been able to
perform adequate audit procedures on the program costs referred to in the preceding paragraph,
the financial statements and related notes referred to above were presented fairly, in all material
respects, the financial position of the FEC as of September 30,2005 and 2004, and its net cost,
changes in net position, budgetary resources, reconciliation of net cost to budgetary obligations,
and custodial activity for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

The audit included an examination, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. The audit also included assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
principal statements' presentation.

Audit Follow-yp
The report on internal control contains numerous recommendations to address weaknesses found
by the auditors. Management was provided a draft copy of the audit report for comment and
CG-LLP reviewed management's comments. Although CG-LLP stands by the report and the
weaknesses detailed, the OTG and CG-LLP intend to work with management through the follow-
up and audit process to ensure the weaknesses are addressed satisfactorily. In accordance with
OMB Circular No. A-50, Audit Followup, revised, and based on an agreement with the Offices of
the Staff Director and General Counsel, the Staff Director or designee shall develop an action
plan for corrective action of the recommendations. The action plan is to set forth specific action
planned to implement the recommendations and the schedule for implementation.

OTG Evaluation of Clifton Gunderson LLP's Audit Performance
In connection with the OIG's contract with CG-LLP, the OIG reviewed CG-LLP's reports
and related documentation and inquired of its representatives. Specifically, we performed
the following: (1) reviewed CG-LLP's approach and planning of the audit; (2) evaluated
the qualifications and independence of the auditors; (3) monitored the work of the auditors
throughout the audit; (4) examined audit documents and audit reports to ensure compliance
with Govern~ltentAuditing Standards and OMB Bulletin No. 01-02; and (5) performed other
procedures we deemed necessary.

The OIG's review of CG-LLPYswork, as differentiated from an audit in accordance with
Governmertt Auditing Standards issued by the Comptroller General of the United States, was
not intended to enable us to express an opinion on the FEC's financial statements; provide
conclusions about the effectiveness of internal control; or reach conclusions on whether FEC's
management substantially complied with laws and regulations related to the audit. CG-LLP
is responsible for the opinion and conclusions reached in the attached reports dated November
7,2005. The OIG review disclosed no instances where CG-LLP did not comply, in all material
respects, with Government Auditing Standards.
Tf you should have any questions, please contact my office on (202) 694-1015. We appreciate the
courtesies and cooperation extended to Clifton Gunderson LLP and the OIG staff during the
conduct of the audit.



                                          ~ y f mA
                                                 e . McFarland
                                          Inspector General

Attachments

Cc: 	 Acting Staff Director
      Chief Financial Officer and Deputy Staff Director for Management
      Accounting Officer
      Information Technology Director
                                 Table of Contents

Transmittal Memorandum


Independent Auditor's Report        ............................................................ 1 

Independent Auditor's Report on Internal Control      ..........................................3 

Independent Auditor's Report with Laws and Regulations         ................................23 

Management's Comments to the Independent Auditor's Reports              .......................24 

                                                       Independent Auditor's Report


                     To the Inspector General of the
                      Federal Election Commission


                     We have audited the balance sheets of the Federal Election Commission (FEC) as of
                     September 30,2005 and 2004, and the related statements of net cost, changes in net position,
                     budgetary resources, financing, and custodial activity for the years then ended. These financial
                     statements are the responsibility of FEC's management. Our responsibility is to express an
                     opinion on these financial statements based on our audit.

                     Except as discussed in the following paragraph, we conducted our audits in accordance with
                     auditing standards generally accepted in the United States of America; the standards applicable
                     to financial audits contained in Government Auditing Standard, issued by the Comptroller
                     General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
                     Audit Requirements for Federal Financial Statements, as amended Those standards require that
                     we plan and perform the audit to obtain reasonable assurance about whether the financial
                     statements are free of material misstatement. An audit includes examining, on a test basis,
                     evidence supporting the amounts and disclosures in the financial statements. An audit also
                     includes assessing the accounting principles used and significant estimates made by
                     management, as well as evaluating the overall financial statements' presentation. We believe our
                     audits provide a reasonable basis for our opinion.

                     In fiscal year 2005, the FEC was late in providing cost information to support the allocation of
                     program costs reported on the statement of net cost. As a result, adequate time did not remain to
                     obtain sufficient competent evidential matter and apply auditing procedures necessary to conduct
                     the audit in accordance with the standards and OMB audit guidance mentioned above.

                     In our opinion, except for the effects of such adjustments to the fiscal year 2005 statement of net
                     cost, if any, as might have been necessary had we been able to perform adequate audit
                     procedures on the program costs referred to in the preceding paragraph, the financial statements
                     and related notes referred to above present fairly, in all material respects, the financial position of
                     the FEC as of September 30,2005 and 2004, and its net cost, changes in net position, budgetary
                     resources, reconciliation of net cost to budgetary obligations, and custodial activity for the years
                     then ended in conformity with accounting principles generally accepted in the United States of
                     America.




                    Ctntt~purkI
                    404 1 Podrri\fi//Rard, SmIe 4 10
                    Cuf1yrt011,
                              rC1ngL11d20.V5-3 106
                    tcl: 301-93 1-2050
                    k v : 301-931-1710                                 1 of 23
                                                          Officcs in 14 stntcs and Washinson, l3C             mM-*,
                                                                                                              Y
                                                                                                              ..   .l




Independent Auditor's Report                                                                                              Page 1
                    In accordance with Government Auditing Stanhrds, we have also issued our reports dated
                    November 7, 2005 on our consideration of FEC's internal control over financial reporting, and
                    on our tests of FEC's compliance with certain provisions of laws and regulations. The purpose
                    of those reports is to describe the scope of our testing of internal control over financial reporting
                    and compliance and the results of that testing, and not to provide an opinion on the internal
                    control over financial reporting or on compliance. Those reports are an integral part of our audit
                    performed in accordance with Government Auditing Standard and should be considered in
                    assessing the results of our audit.

                    Our audits were made for the purpose of forming an opinion on the basic financial statements
                    taken as a whole. The Management Discussion and Analysis, required supplementary
                    information, and other accompanying information contain a wide range of data, some of which is
                    not directly related to the financial statements. We do not express an opinion on this
                    infoxmation. However, we compared this infoxmation for consistency with the financial
                    statements and discussed the methods of measurement and presentation with the FEC officials.
                    Based on this limited work, we found no material inconsistencies with the financial statements or
                    nonconformance with OMB guidance.




                    Calverton, Maryland
                    November 7,2005




Independent Auditor's Report                                                                                           Page 2
                                                       Independent Auditor's Report on Internal Control


                     To the Inspector General of the
                      Federal Election Commission


                     We have audited the financial statements of the Federal Election Commission (FEC) as of and
                     for the year ended S-eptember30,2005, and have issued our report dated November 7,2005. In
                     our report, our opinion was qualified for the effects of adjustments, if any, as might have been
                     necessary had we been able to perform adequate audit procedures on the cost information
                     supporting the allocation of program costs reported on the statement of net cost. Except as
                     described above, we conducted our audit in accordance with auditing standards generally
                     accepted in the United States of America; the standards applicable to financial audits contained
                     in Government Auditing Standards, issued by the Comptroller General of the United States; and
                     Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirementsfor Federal
                     Financial Statements, as amended.

                     In planning and performing our audit, we considered FEC's intemal control over financial
                     reporting by obtaining an understanding of FEC's internal control; determined whether internal
                     controls had been placed in operation; assessed control risk; and performed tests of controls in
                     order to determine our auditing procedures for the purpose of expressing our opinion on the
                     financial statements. We limited our internal control testing to those controls necessary to
                     achieve the objectives described in OMB Bulletin No. 01-02. We did not test all intemal
                     controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
                     Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls relevant to ensuring efficient
                     operations. The objective of our audit was not to provide assurance on internal control.
                     Consequently, we do not provide an opinion on internal control.

                     Our consideration of the internal control over financial reporting would not necessarily disclose
                     all matters in the internal control over financial reporting that might be reportable conditions.
                     Under standards issued by the American Institute of Certified Public Accountants, reportable
                     conditions are matters coming to our attention relating to significant deficiencies in the design or
                     operation of the internal control that, in our judgment, could adversely affect the agency's ability
                     to record, process, summarize, and report financial data consistent with the assertions by
                     management in the financial statements. Material weaknesses are reportable conditions in which
                     the design or operation of one or more of the internal control components does not reduce to a
                     relatively low level the risk that misstatements in amounts that would be material in relation to
                     the financial statements being audited may occur and not be detected within a timely period by
                     employees in the normal course of performing their assigned functions. Because of inherent
                     limitations in internal controls, misstatements, losses, or noncompliance may nevertheless occur

                    Ctntttprk I
                    4W 1 Powder ~ l f i Rocid,
                                        //     SUI& 4 10
                    Calwtiox,rlfo~~lu~td  20.V 5-31 06
                    tcl: 301-931-2050
                    fax: 301-931-1710                                          3 of 23
                                                                  Officus in 14 stntcs and Wtrjhinpon, D C




Independent Auditor's Report on Internal Control                                                                            Page 3
                    and not be detected. However, we noted certain matters discussed in the following paragraphs
                    involving the internal control and its operation that we consider to be reportable conditions and
                    material weaknesses.

                    Finally, with respect to internal control related to performance measures reported in FEC's
                    Performance and Accountability Report, we obtained an understanding of the design of
                    significant internal controls relating to the existence and completeness assertions, as required by
                    OMB Bulletin No. 01-02, as amended. Our procedures were not designed to provide assurance
                    on internal control over reported performance measures, and, accordingly, we do not provide an
                    opinion on such controls.



                    FEC attained a major achievement by having its financial statements audited for the first time in
                    fiscal year 2004. FEC continues to design and implement internal controls to strengthen its
                    financial reporting processes. Also, early in the second half of fiscal year 2005, FEC hired a
                    Deputy Staff Director for ManagementIChief Financial Officer, a position which was not filled
                    for over a year. In fiscal year 2005, however, certain controls were still being designed, not yet
                    implemented, not fully implemented or not consistently implemented throughout the year.

                    MATERIAL WEAKNESSES

                    I.      Cost Accounting System and Processes

                           The weaknesses identified below collectively resulted in a material weakness in FEC's
                           cost accounting system and processes.

                           A. Cost Allocation Methodology (Repeat Finding)

                               FEC does not have a cost accounting system that is integrated with the general ledger
                               (GL) system. The current cost accounting system is not adequate to produce the cost
                               data for the Statement of Net Cost (SNC) in an efficient manner. Moreover, the lack
                               of documented procedures and the heavy reliance on a single person to carry out this
                               process impaired FEC's ability to generate timely information especially after the
                               person became unavailable. Consequently, FEC was not able to provide the
                               documentation for cost allocation timely and we were not able to apply auditing
                               procedures to satisfy ourselves with the program costs reported on the SNC.

                               The cost data presented on the SNC is compiled from three systems' raw data, which
                               is then gathered and analyzed using an elaborate, complex, and manually intensive
                               process. Raw data used in the allocation of costs, such as FTE hours, is sometimes
                               based on estimates due to the timing of the availability of the data.




Independent Auditor's Report on I n t d Control                                                                           Page 4
                                 FEC summarizes employee hours in a spreadsheet based on an office's program
                                 numbers, which is generated by a system. The program numbers represent the type of
                                 work performed by an employee and the hours are assigned directly or allocated to
                                 FEC's three major programs. FEC could not provide crosswalk documentation or
                                 definitions supporting the basis of assignment or allocation. The data accumulation
                                 and analysis is performed by one person and not subjected to a second review.

                                 The manually intensive and elaborate cost allocation process dictates the need for a
                                 formal comprehensive policy and procedures.

                                 A control activity in the GAO Standard for Internal Control in the Federal
                                 Government is appropriate documentation of transactions and internal control.
                                 Internal control and all transactions and other significant events need to be clearly
                                 documented, and the documentation should be readily available for examination. The
                                 documentation should appear in management directives, administrative policies, or
                                 operating manuals. All documentation and records should be properly managed and
                                 maintained.

                             Recommendations:

                             1. 	 Establish formal and comprehensive cost allocation methodology and related policy
                                  and procedures.

                             2. 	 Cross-train employees to minimize the risks of major intemptions in normal business
                                  operations.

                             3. 	 Establish a review process wherein a person, other than the preparer, reviews the
                                  work performed to ensure accuracy and propriety.

                             4. 	 Maintain audit trails to support the allocation methodology and amounts.

                             B. Managerial Coat Accounting (Repeat Finding)
                                Statement of Federal Financial Accounting Standards No. 4, Managerial Cost
                                Accounting Concepts and Standards for the Federal Government, requires reporting
                                components to perform a minimum-level of cost accounting and provide basic
                                information necessary to accomplish the many objectives associated with planning,
                                decision-making, and reporting. This minimum-level of cost accounting includes,
                                among others: providing information for performance measurement; integrating both
                                cost accounting and general financial accounting by using the United States Standard
                                General Ledger (USSGL); providing useful information; and accommodating
                                management's special cost information needs or any other needs that may arise due to




Independent Auditor's Report on Internal Control 	                                                                   Page 5
                                  unusual or special situations or circumstances. The present FEC cost accounting
                                  system does not provide the minimum-level identified above.

                                  FEC is currently testing a new cost accounting system with a target implementation
                                  date of January 2006. The FEC believes the conditions noted above will be corrected
                                  by the new cost accounting system.

                              Recommendation:

                              5. 	 Evaluate the functional requirements for the new cost accounting system to ensure
                                   that at least, the minimum level of cost accounting required in SFFAS No. 4 is
                                   attained.

                      11.	    Administrative Fines, Civil Penalties and Miscellaneous Receipts (Custodial
                              Receipts) (New Condition)

                              The weaknesses identified below collectively resulted in a material weakness in FEC's
                              custodial receipts.

                              FEC does not have adequate systems and controls in place to ensure that custodial
                              receipts are properly accounted for and recorded timely. There were no formal
                              accounting policy and procedures to ensure that various offices periodically forward to,
                              or notify, the finance office of all identifiable, legally enforceable claims (receivable and
                              revenue) for recording of activities in accordance with the accounting standards. The
                              lack of a policy, standard mechanism and consistent approach resulted in transactions not
                              being recorded and reported timely and required the FEC to expend significant effort
                              towards the end of the fiscal year to identify all transactions that should be recorded.

                             Moreover, for receivables already recorded in the books, FEC lacked adequate
                             documentation of analysis applied in determining the allowance for doubtful accounts. In
                             addition, transactions related to the custodial receipts, which are non-appropriated funds,
                             were recorded in Standard General Ledger (SGL) account no. 1011, an account used for
                             appropriated funds. The use of the incorrect SGL account was corrected in September
                             2005 when the auditors brought this issue to FEC's attention.

                             SFFAS No. 7, Accounting for Revenue and Other Financing Sources, states that non-
                             exchange revenue (e.g. penalties and fines) should be recognized when a specifically
                             identifiable, legally enforceable claim to resources arises, to the extent that collection is
                             probable (more likely than not) and the amount is reasonably estimable. An allowance
                             for uncollectible accounts receivable should be recognized as a revenue adjustment.




Independent Auditor's Report on Internal Control 	                                                                        Page 6
                             The United States Standard General Ledger (USSGL) provides a uniform Chart of
                             Accounts and technical guidance to be used in standardizing federal agency accounting.

                             Recommendations:

                             6. 	 Establish and implement policy and procedures ensuring communication and
                                  coordination between program offices and finance office on activities with financial
                                  impact. The policy should also clearly establish the FEC's revenue recognition
                                  policy. The finance office should design a standard report outlining all the necessary
                                  information to record the financial activities. The report should be prepared and
                                  submitted timely at least monthly by the program offices to the finance office.

                             7. 	 Document the policy and basis for the allowance for uncollectible accounts.

                      111.   General Property and Equipment (Property) (Modified Repeat Finding)

                             FEC's accounting for property involves a time-consuming effort that increases the risk of
                             errors due to its process of expensing its property at the time of acquisition and preparing
                             a journal voucher to reclassify the expense to an asset for reporting purposes. In mid-
                             September 2005, FEC changed to a new property management system. However, the
                             accounting for property did not change.

                             Our audit disclosed deficiencies, errors or omissions that questioned the effectiveness of
                             FEC's internal control on property. The weaknesses identified below collectively
                             resulted in a material weakness in FEC's general property and equipment. Some
                             examples are noted below:

                                 The internal control to ensure completeness and proper valuation of property recorded
                                 in the books was not properly designed, and consequently, was not effective. The
                                 periodic property reconciliation process did not identify software that should have
                                 been capitalized until during the audit process. In addition, the monthly management
                                 analysis of financial activities did not show an analysis of property.
                                 Although the number of items in FEC's capitalized asset is not many, most of these
                                 assets are bulk purchases comprised of many individual properties which are
                                 individually entered into the property system for accountability purposes. The
                                 information contained in the property system is not always complete. We found that
                                 some items in the property system did not have the bar code identification, serial
                                 number and location of the asset.
                                 Although we were informed that a property physical inventory was conducted, FEC
                                 could not provide the instructions, complete results and reconciliation of the physical
                                 inventory to the property system and the general ledger balance.




Independent Auditor's Report on Internal Control 	                                                                      Page 7
                                 FEC did not always capitalize assets in accordance with the Statement of Federal
                                 Financial Accounting Standards (SFFAS) No. 10, Accounting for Internal Use
                                 Sofiware. Moreover, FEC's processes of identifying software in progress and
                                 completed were not adequate to ensure that all software was identified and recorded.
                                 For 12 of the 18 property additions tested, the receiving reports were not complete or
                                 included incorrect information.
                                 The obligating memo for one of the 15 sample items was not approved by the
                                 accounting officer, an authorized approving officer.
                                 There was no standard process, mechanism or a policy to ensure that program offices
                                 notify the finance office of the acquisition or disposition of property such as software
                                 in development, completed software, construction in progress, and completed
                                 construction to ensure the accounting impact of the transaction is recorded timely and
                                 proper1y.

                             One of the five standards for internal control in the Government Accountability Oflice's
                             (GAO) Standard for Internal Control in the Federal Government is control activities.
                             Control activities occur at all levels and functions of the entity. They include a wide
                             range of diverse activities such as approvals, authorizations, verifications, reconciliations,
                             performance reviews, maintenance of security, and the creation and maintenance of
                             related records, which provide evidence of execution of these activities as well as
                             appropriate documentation.

                             Recommendations:

                             8. 	 Reconcile the total of the individual property items in the property system to the bulk
                                  purchase total recorded in the books to ensure completeness of the property system
                                  records.

                             9. 	 Document physical inventory procedures, results, and reconciliation and maintain the
                                  documentation for audit trail purposes.

                             10. Revise the software capitalizationpolicy to comply with SFFAS No. 10.

                             11. Enforce compliance and consistent implementation of policies and procedures related
                                 to completing receiving reports and the review and approval of obligating memos or
                                 documents.

                             12. Establish a standard process and policy where program offices are required to notify
                                 the finance office of any property acquisition or disposition with accounting impact to
                                 ensure proper and timely recording of the transaction.




Independent Auditor's Report on Internal Control 	                                                                          Page 8
                     IV.     Information Technology (IT)

                            The reportable conditions below, when evaluated together, make the IT area a material
                            weakness.

                            A. Entity-Wide Security Program

                                GAO reported in July 2005 that the underlying cause for information security
                                weaknesses is that agencies have not yet fully implemented entity-wide information
                                security programs. An entity-wide security program provides a framework and
                                continuing cycle of activity for managing risk, developing security policies, assigning
                                responsibilities, and monitoring the adequacy of the entity's computer-related
                                controls. Without a welldesigned program, security controls may be inadequate;
                                responsibilities may be unclear, misunderstood, and improperly implemented; and
                                controls may be inconsistently applied. Such conditions may lead to insufficient
                                protection of sensitive or critical resources and disproportionately high expenditures
                                for controls over low-risk resources. (U.S. Government Accountability Office,
                                Weaknesses Persist at Federal Agencies Despite Progress Made in Implementing
                                Related Statutory Requirements, GAO-05-552 [Washington, D.C.: July 20051).

                                FEC has taken important steps to establish an effective information security program,
                                but has not completed the documentation, approval and implementation of an entity-
                                wide security program plan. In October 2004, FEC issued a memo informing
                                employees that the "Information System Security Program Policy" (Policy Number
                                58A) was approved and should be followed by all employees. Policy Number 58A
                                was created to "manage the risk to information rather than just systems" and serve as
                                the backbone of FEC's entity-wide security program. Policy 58A and its subsets
                                supplement Directive 58, "Electronic Records, Software and Computer Usage,"
                                which was issued in November 1997.

                                In fiscal year 2005, FEC has completed the identification of its major applications and
                                mission critical general support systems (MCGSS) as part of its risk mitigation
                                strategy. FEC management also created a Security Review Policy that calls on
                                management to perform annual external penetration testing, disaster recovery tests, a
                                review of incident response procedures, a network vulnerability study, a code review
                                of one major application and a review of access control procedures. Additionally,
                                FEC management is currently in the process of soliciting bids for risk assessments.
                                Management has completed the statement of work, received proposals and is
                                currently reviewing the proposals. The risk assessment and business impact analysis
                                are key components in the development of security plans and disaster recovery plans.
                                These components are essential in the establishment of the framework for the
                                development and implementation of the FEC's security plans and disaster recovery
                                plans.




Independent Auditor's Report on Internal Control                                                                          Page 9
                                 Current weaknesses that exist in FEC's information security program include the
                                 following:
                                    (Repeat Finding) FEC has not filly implemented its documented framework of
                                    policies and standards to mitigate risks associated with the management of
                                    information resources.
                                    (Repeat Finding) FEC has not completed the documentation, approval and
                                    implementation of its entity-wide security program plan.
                                    (Modified Repeat Finding) FEC has not completed the documentation, approval
                                    and implementation of security plans for six of the 13 identified major
                                    applications and MCGSS.
                                    Resource Classifications in FEC7s security plans are not based on Risk
                                    Assessments.
                                    (Modified Repeat Finding) FEC has not fully implemented a program for the
                                    continuous monitoring and evaluation of the computer security policy and control
                                    effectiveness. Although the FEC has created a Security Review Policy, the FEC
                                    did not provide evidence of several components of the security reviews to be
                                    conducted during the fiscal year that would document the continuous monitoring
                                    and evaluation of the security policy. For example, the auditors were not
                                    provided with evidence of the following reviews required by the policy: MCGSS
                                    reviews; test of the incident response procedures; and a code review of one major
                                    application. The FEC has created a Security Review Policy that calls on
                                    management to perform annual external penetration testing, disaster recovery
                                    testing, a review of incident response procedures, a network vulnerability study,
                                    and a review of access control procedures. Additionally, FEC management issued
                                    a memo on May 21, 2004 outlining a schedule of review of its major applications
                                    and MCGSS with reviews of the MCGSS beginning in the third quarter of fiscal
                                    year 2005.
                                    (Repeat Finding) Risk assessments have not been conducted for more than three
                                    years. FEC management is currently in the process of soliciting bids for risk
                                    assessments.
                                    (Repeat Finding) Major applications and MCGSS have not been certified and
                                    accredited to ensure that they are operating according to FEC's security
                                    requirements.
                                    There are weaknesses in FEC's program to document corrective actions and
                                    verify that the weaknesses identified have been addressed.




IndependentAuditor's Report on Internal Control                                                                    Page 10
                             Recommendations:

                             13. Implement a framework of policies and standards to mitigate risks associated with the
                                 information resources management.

                             14. Complete the documentation, approval and implementation of an entity-wide security
                                 program plan.

                             15. Develop and implement security plans for all major applications and MCGSS as part
                                 of a risk mitigation strategy.

                             16. Ensure that Resource Classifications in FEC's security plans accurately reflect the
                                 risk and vulnerabilities of FEC systems.

                             17. Complete the implementation of the program for the continuous monitoring and
                                 evaluation of the computer security policy and control effectiveness.

                             18. Conduct risk assessments at least every three years as part of an overall strategy to
                                 mitigate risks associated with its information technology environment.

                             19. Certify that the major applications and MCGSS are operating according to FEC's
                                 security requirements.

                             20. Strengthen FEC's program to document corrective actions and verify that weaknesses
                                 identified have been addressed. Ensure and document that recommendations fkom the
                                 most recent network security review have been implemented.

                             B. Controls to Protect Information

                                For a computerized organization like FEC, achieving an adequate level of information
                                protection is highly dependent upon maintaining consistently effective access controls
                                and system software controls. Access controls limit and monitor access to computer
                                resources (i.e., data files, application programs, and computer-related facilities and
                                equipment) to the extent necessary to provide reasonable assurance that these
                                resources are protected against waste, loss, unauthorized modification, disclosure, or
                                misappropriation. Access controls include logical/technical controls such as
                                designing security software programs to prevent or detect unauthorized access to
                                sensitive data. Similarly, system software controls limit and monitor access to
                                powerful programs and sensitive files that control computer processing and secure the
                                application and data supported by the system.




Independent Auditor's Report on Internal Control                                                                     Page 11
                               Our limited testing of internal controls identified weaknesses related to the
                               information protection in the FEC's information systems environment. Impacted
                               areas included the local area and wide area networks as well as its midrange computer
                               systems (e.g. servers). These vulnerabilities expose FEC and its computer systems to
                               risks of external and internal intrusion, and subject sensitive information related to its
                               major applications to potential unauthorized access, modification, andlor disclosure.

                               Current weaknesses in access controls include the following:
                                   (Modified Repeat Finding) The principle of "least privilege" is not enforced. A
                                   high-level finance officer has system administrator access to the GL system.
                                   (Repeat Finding) FEC does not maintain visitor logs for data center access and
                                   has not implemented adequate compensating controls to monitor and record
                                   visitor access to the data center.
                                   (Modified Repeat Finding) FEC does not use access request forms to document
                                   user access rights or periodically review all access rights for appropriateness.
                                   Specifically, we noted that data center access request e-mails were only available
                                   for three out of 40 users and there was no evidence of data center access
                                   revalidation. Additionally, we noted that access rights for the new property
                                   system were not documented; access requests were verbally approved, according
                                   to management.
                                   (Modified Repeat Finding) The GL system application does not have the built in
                                   functionalityto enforce password controls. Specifically,
                                      o It does not enforce password changes,
                                      o It does not have an account lockout policy,
                                      o It does not prevent users from using previous passwords, and
                                      o It does not have the ability to enforce strong password requirements.
                                  (Repeat Finding) FEC does not comply with its auditing policy because it does
                                  not automatically log the network activity described in its Audit Event Standardr,
                                  even though it has the capability to do so.
                                  FEC is not actively monitoring the use of budgetary ovemdes in the GL
                                  application.
                                  FEC does not periodically review its firewall rule set for appropriateness.
                                  Local area network (LAN) user accounts are not appropriately reviewed:
                                     o One account has not been used since 1998;
                                     o One account has not been used since 2002; and
                                     o Two accounts have not logged on since 2004.




IndependentAuditor's Report on Internal Control                                                                             Page 12
                              Recommendations:


                              21. Create a new GL system application role to give employees with necessary and
                                 appropriate access rights to fulfill their job responsibility.

                              22. Monitor and record visitor access to the data center.

                              23. Use access request forms to document user access rights and periodically review the
                                 access for appropriateness.

                              24. Develop mitigating controls to ensure that GL system passwords are in agreement
                                 with FEC policy.

                              25. Automatically log network activity as required by the Audit Events Standarak.

                              26. Institute a process to manually review logs of users using budgetary overrides where
                                  the reviewer is an individual who does not have access to utilize the overrides.

                              27. Periodically review the firewall rule set for appropriateness.

                             28. Periodically review LAN user accounts and disable unnecessary user accounts.

                             C. Contingency Plan

                                 Losing the capability to process and protect information maintained on FEC's
                                 computer systems can significantly impact FEC's ability to accomplish its mission to
                                 serve the public. The purpose of service continuity controls is to ensure that, when
                                 unexpected events occur, critical operations continue without interruption or critical
                                 operations are promptly resumed.

                                 To achieve this objective, FEC should have procedures in place to protect information
                                 resources and minimize the risk of unplanned interruptions and a plan to recover
                                 critical operations should interruptions occur. These plans should consider activities
                                 performed at FEC's general support facilities (e.g. FEC's LAN, wide area network,
                                 and telecommunications facilities), as well as the activities performed by users of
                                 specific applications. To determine whether the disaster recovery plans will work as
                                 intended, FEC should establish and periodically test the capability to perform its
                                 functions in disaster simulation exercises.

                                 Our review of the service continuity controls identified deficiencies that could affect
                                 FEC's ability to respond to a disruption in business operations as a result of a disaster
                                 or other long-term emergency. The deficiencies were as follows:




Independent Auditor's Report on Internal Control                                                                        Page 13
                                      (Modified Repeat Finding) FEC has not performed a Business Impact Analysis
                                      (BIA) to formally identify and prioritize all critical data and operations on its
                                      networks and the resources needed to recover them if there is a major intermption
                                      or disaster. In addition, we could not determine whether FEC had established
                                      emergency processing priorities that will help manage disaster situations more
                                      effectively for the network. FEC also has not included business owners in the
                                      discussion to determine how much backup data is needed on-hand to minimize the
                                      impact of a disaster. FEC is currently in the process of creating a request for
                                      proposal for completing a BIA.
                                      (Modified Repeat Finding) FEC has not established an alternate processing site
                                      for its operations in the event of a disaster, including its general ledger system.
                                      Additionally, the FEC disclosure database is replicated at an off-site location as a
                                      web-enabled, read-only database the public can access. In the event that data
                                      cannot be updated at FEC and then replicated to the off-site location, there is no
                                      operational mechanism to update the disclosure database at the off-site location.
                                      FEC has developed a cost analysis of establishing an alternate site and is cumntly
                                      pursuing interagencyagreements to address this issue.
                                      FEC has not developed a Continuity of Operations Plan (COOP) to support the
                                      continuation of its core mission in the event of a disaster that renders the FEC's
                                      facilities unusable.
                                      (Modified Repeat Finding) FEC has not developed and documented a
                                      comprehensive contingency plan of its data centers, networks and
                                      telecommunication facilities. FEC has created a contingency plan that includes
                                      procedures for restoring its network and the GL system application in the event of
                                      a disaster. Although FEC has identified the system resources and relevant points
                                      of contact associated with the two systems, the following elements were missing
                                      from the contingency plan:
                                          o 	 The plan does not cover all major applications and mission critical
                                              systems, and
                                          o 	 The plan does not prioritize resources or set a timeframe for recovery.

                              Recommendations:

                               29. Perform a Business Impact Analysis to formally identify and prioritize all critical data
                                   and operations on FEC's networks and the resources needed to recover them if there
                                   is a major intermption or disaster. Ensure that emergency processing priorities are
                                   established to assist in managing disaster situations more effectively for the network
                                   and include business owners in the discussion to determine how much backup data is
                                   needed on-hand to minimize the impact of a disaster.




Independent Auditor's Report on Internal Control 	                                                                       Page 14
                             30. Establish alternative processing site for FEC's operations in the event of a disaster
                                 and ensure that an operational mechanism exists to update the disclosure database in
                                 the event that the FEC database is unavailable to replicate the disclosure database
                                 resident at the off-site location.

                             3 1. Develop a Continuity of Operations Plan (COOP) to support the continuation of the
                                  FEC's core mission in the event of a disaster that renders the FEC's facilities
                                  unusable.

                             32. Develop and document a comprehensive contingency of operations plan of FEC's
                                 data centers, networks and telecommunication facilities.

                             D. Software Development and Change Controls

                                 Establishing controls over the modification of application software programs helps to
                                 ensure that only authorized programs and authorized modifications are implemented.
                                 This is accomplished by instituting policies, procedures, and techniques that help
                                 make sure all programs and program modifications are properly authorized, tested,
                                 and approved and that access to and distribution of programs is carefully controlled.
                                 Without proper controls, there is a risk that security features could be inadvertently or
                                 deliberately omitted or "turned off' or that processing irregularities or malicious code
                                 could be introduced.

                                 (Modified Repeat Finding) FEC has not fully implemented its System Development
                                 Life Cycle (SDLC) Methodology, specifically:

                                        The FEC is not using Change Implementation/Notices to document change
                                        requests,
                                        One change did not show evidence of user acceptance testing,
                                        Two changes did not show evidence of implementation approval,
                                        Test results and approvals are not documented on Test Problem Reports and
                                        Test Approval Determinations,as indicated in the SDLC, and
                                        The FEC did not perform a feasibility study or cost-benefit analysis for the
                                        acquisition of Probar, a new property management system.

                             Recommendation:


                             33. Fully implement the System Development Life Cycle Methodology.




Independent Auditor's Report on Internal Control                                                                         Page 15
                      REPORTABLE CONDITIONS 


                      V.      Financial Reporting (Modified Repeat Finding)

                              A.	 General Ledger (GL) System Setup and Posting Model Definitions (Modified
                                  Repeat Finding)

                                 The GL system setup and posting model definitions do not fully comply with the
                                 transactions posting models consistent with the USSGL guidance and policies when
                                 recording and classifying certain transactions. The resources expended to
                                 periodically review and research incorrect posting logic errors, reconciliation, and
                                 adjustments to the general ledger accounts could be devoted to the routine daily
                                 business operations of FEC. FEC is aware of the inherent limitations of the GL
                                 system and has requested assistance fiom the vendor to correct posting logic. FEC
                                 anticipates corrections will be finalized in fiscal year 2006.

                              Recommendation:

                              34. Ensure that corrections made to the posting logic comply with the USSGL and that
                                  the USSGL accounts and posting logic are updated as changes to USSGL are issued.

                              B.	 Continuing Resolution Accounting (New Finding)

                                 FEC did not record apportionments granted during the continuing resolution period in
                                 accordance with the instructions fiom the OMB Circular No. A-1 1, Preparation and
                                 Submission of Budget Estimates, and OMB Bulletin No. 04-05, Apportionment of
                                 Continuing Resolution(s)for Fiscal Year 2005. Specifically, FEC recorded the entire
                                 requested appropriation of $52 million as budget authority in October 2004 even
                                 though the entire budget authority did not become available until January 2005.
                                 Under the continuing resolution accounting scenario provided by the U.S. Treasury,
                                 amounts recorded as appropriation1 apportionment should only be in amounts
                                 determined in accordance with OMB Bulletin No. 04-05. Although the incorrect
                                 entries automatically became correct entries upon the receipt of the full appropriation,
                                 which was apportioned in January 2005, the system's funds control during the
                                 continuing resolution period was not effective and the risk that unavailable funds
                                 could be expended during this period was high.

                                 In addition, proper reconciliation should be performed by reflecting what was actually
                                 recorded in the books versus what was reported by the U.S. Treasury FMS 6653,
                                 UndisbursedAppropriation Account Ledger.




Independent Auditor's Report on Internal Control 	                                                                      Page 16
                             Recommendation:

                             35. Comply with the continuing resolution accounting scenario prescribed by 	 U.S.
                                 Treasury in accordance with memorandum issued by OMB.

                             C. 	 Integrated Financial Management System (Repeat Finding)

                                A single, integrated financial management system is a unified set of financial systems
                                linked together electronically in an efficient and effective manner to provide agency-
                                wide financial system support. Integration means that the user is able to have one
                                view into systems such that, at whatever level the individual is using the system, he or
                                she can obtain needed information efficiently and effectively through electronic
                                means. It does not necessarily mean having only one software application covering
                                all financial management system needs within an agency. Interfaces are acceptable as
                                long as the supporting details are maintained and accessible to managers. Interface
                                linkages must be electronic unless the number of transactions is so small that it is not
                                cost beneficial to automate the interface. Easy reconciliationbetween systems, where
                                interface linkages are appropriate,must be maintained to ensure data accuracy.

                                FEC does not have an integrated financial management system. Significant financial
                                management systems such as the cost system, receivable systems and the property
                                and equipment system do not interface with the GL system.

                            Recommendation:

                             36. Continue to assess the degree of integration necessary to have a single, unified
                                 financial system by evaluating the functional requirements and the costs and benefits
                                 of integrating the financial reporting, property and equipment, receivable, and the cost
                                 systems with the GL system.

                     VI.     Payroll (Modified Repeat Finding)

                             The results of our internal control tests disclosed weaknesses in payroll processing
                             similar to the prior year, as follows:

                                Transmitting certain payroll transactions, such as leave balance adjustments, to FEC's
                                payroll service provider is a two-step process initiated by the FEC. We noted that in
                                two instances, FEC made the first step in adjusting an employee's leave balance but
                                failed to perform the second step. As a result, the leave adjustment was not
                                transmitted or reflected in the service provider's system.
                                Documentation such as election forms for payroll deduction authorization (FEGLI,
                                federal tax withholding, savings bond, FEHB,and TSP-FERS) and SF-50 form were




Independent Auditor's Report on Internal Control 	                                                                          Page 17
                                not consistently maintained in the payroll files, and therefore some were not available
                                for our review.
                                FEC's policy requires timekeepers to perform bi-weekly reconciliations between the
                                leave balances in FEC's records and the payroll service provider. The timekeepers
                                are to forward leave balance certifications to the finance office indicating whether
                                balances agree'or disagree. Thirteen of the 45 leave balance certification forms were
                                not submitted and five of the 45 submitted were incomplete. Furthermore, there was
                                no indication that the finance ofice followed-up on the certifications that were not
                                received or incomplete.
                                For two of the 45 employees tested, the T&A (time and attendance) report did not
                                agree with the service provider's leave balance report. However, the timekeeper
                                certified that the leave balance report agreed with individual leave records. In
                                addition, there were also two instances where the timekeeper submitted a leave
                                balance certification but there was no leave balance on the employee's T&A report.
                                For two of the 45 employees tested, we noted four instances where the approved
                                T&A reports were not properly completed.

                            OMB Circular A- 123, Management Accountability and Control (Revised June 2 1, 1995),
                            requires that "the documentation for transactions, management controls and other
                            significant events must be clear and readily available for examination." GAO Standarch
                           for Internal Control in the Federal Government states that transactions and other
                            significant events should be authorized and executed only by persons acting within the
                            scope of their authority. This is the principal means of assuring that only valid
                            transactions to exchange, transfer, use or commit resources and other events are initiated
                            or entered into."

                            FEC Accounting Manual Vol. I, Section 1.3.2.2.10, Reconciliation, states that
                            "transactions recorded in the FEC accounting system [should be] periodically reconciled
                            with source documents." Section 1.3.2.2.15, Compensation, also states "'timely,accurate,
                            and complete subsidiary records [should be] maintained of vacation [and] sick leave and
                            other balances."

                            Recommendations:

                            37. Implement procedures to ensure that leave adjustments are completely processed and
                                transmitted to the service provider.

                            38. Maintain in the personnel files all payroll deduction authorization forms initiated
                                through FEC, i.e., not done directly by the employee with a service provider.

                            39. Ensure that timekeepers: perform the bi-weekly reconciliation between leave balances
                                reported in its records and the service provider's records; and submit the bi-weekly
                                leave balance certification to the finance office timely.




Independent Auditor's Report on Internal Control                                                                         Page 18
                              40. Implement procedures for ensuring all payroll and personnel documents are properly
                                  completed and authorized before payroll data is transmitted to the payroll service
                                  provider for processing.

                              41. Consider automating payroll processing to decrease the risk of errors.

                      VII.    Status of Prior Year Comments

                             As required by Government Auditing Standarh and OMB Bulletin No. 01-02, as
                             amended, we have reviewed the status of FEC's corrective actions with respect to the
                             findings and recommendations from the previous year's report on internal controls. For
                             those items not addressed in various sections of our Independent Auditor's Report on
                             Internal Control, summarized above, the following discusses the current status of
                             resolutions for matters raised:

                             Financial Reporting

                                 Condition: FEC did not have a written policy and procedures to formalize plans,
                                 methods, and procedures to guide the financial statement preparation and reporting
                                 process.

                                 In fiscal year 2005, FEC established an accounting department annual calendar and
                                 audit schedule and developed written procedures for the compilation of the quarterly
                                 reports. Therefore, we have removed this as a material weakness.

                                 Condition: FEC did not prepare and analyze monthly reconciliations of subsidiary
                                 and summary account balances.

                                 In fiscal year 2005, FEC continued with the monthly reconciliations and analysis that
                                 it started at the end of fiscal year 2004 for Fund Balance with Treasury, budgetary
                                 accounts, and general property and equipment accounts. However, we continue to
                                 identify deficiencies in the reconciliation of software in development and physical
                                 inventory. This condition, therefore, continues to exist for certain accounts as
                                 explained above.

                             Entity-Wide Security Program

                                 Condition: There is no periodic security awareness training. Training is only
                                 provided to new employees and contractors. FEC did conduct a baseline awareness
                                 training program, but does not have a process in place to provide security awareness
                                 training on an annual basis.




Independent Auditor's Report on Internal Control                                                                     Page 19
                                In fiscal year 2005, FEC provided periodic computer security awareness training to
                                all employees and contractors (i.e. contractors granted access to the FEC's network).
                                Therefore, we have removed this as a reportable condition.

                            Controls to Protect Information

                                Condition: No documentation or verification that the vulnerabilities identified in the
                                F e b ~ a r y2004 network penetration scan had been addressed.

                                In fiscal year 2005, FEC rescanned its systems and verified that the vulnerabilities
                                identified in the February 2004 network penetration scan had been addressed.
                                Therefore, we have removed this as a reportable condition.

                                Condition: There are no records of access requests granted to remote users. FEC
                                was unable to provide access request approval documentationto support the access of
                                all dial-up and virtual private network (VPN) users that we sampled for our review.
                                In addition, there was no evidence of periodic re-validations of these users.

                                In fiscal year 2005, FEC documented and revalidated VPN and dial-up access rights
                                and privileges. Therefore, we have removed this as a reportable condition.

                                Condition: GL system access requests are not properly documented or reviewed.
                                FEC was only able to provide us original access matrices for eight of the 33 current
                                GL system users. Additionally, FEC does not periodically perform revalidations of
                                GL system access.

                                In fiscal year 2005, FEC documented access requests for new users and performed
                                revalidations of access rights granted to existing users of the GL system. Therefore,
                                we have removed this as a reportable condition.

                                Condition: Data center access is not adequatelydocumented or reviewed:
                                o 	 Four employeeshave their names misspelled on the cardholder report;
                                o 	 One of the individuals with access to the data center was terminated recently, but
                                    his access key is still active and the physical location of the key could not be
                                    determined;and
                                o 	 FEC could not identify one user who has access to the data center or justify why
                                    the individual has access to the data center

                                In fiscal year 2005, FEC disabled the active access keys of users not requiring access
                                to the data center and identified all users with access to the data center, but FEC
                                needs to ensure names are correctly spelled on the cardholder report. Therefore, we
                                have removed this as a reportable condition.




Independent Auditor's Report on Internal Control 	                                                                       Page 20
                             ContingencyPlan

                                 Condition: FEC does not have adequate capacity for most of its back-up tapes in its
                                 fireproof safe; hence, back-up tapes are not kept in a fireproof safe.

                                 In fiscal year 2005, FEC has procured an additional fireproof safe@) for back-up
                                 tapes. Therefore, we have removed this as a reportable condition.

                                Condition: FEC's data center is fully exposed to a wet pipe sprinkler system, with
                                no compensating controls to avoid inadvertent water damage to critical hardware and
                                magnetic media in the case of a malfunction or false alarm.

                                FEC has compensating controls to avoid inadvertent water damage to critical
                                hardware and magnetic media in the case of a malfunction or false alarm from the wet
                                pipe sprinkler system. Therefore, we have removed this as a reportable condition.

                             SoftwareDevelopment and Change Controls

                                Condition: No written policy has been created to manage software libraries.

                                In fiscal year 2005, FEC has established a written policy to manage software libraries.
                                Therefore, we have removed this as a reportable condition.

                                Condition: Written procedures to modify, test, approve or release software for any
                                of its applications, including the GL system, have not been documented.

                                In fiscal year 2005, FEC documented written procedures to modify, test, approve and
                                release software for its applications. Therefore, we have removed this as a reportable
                                condition.

                                Condition: Emergency change procedures and procedures for installing patches are
                                not documented.

                                In fiscal year 2005, FEC documented written emergency change procedures for
                                installing patches. Therefore, we have removed this as a reportable condition.

                                Condition: Certain software code changes for the GL system were not reviewed
                                before being implemented.

                                In fiscal year 2005, FEC has established policies and procedures to ensure that the
                                software code is reviewed prior to moving the modified code into production.




Independent Auditor's Report on Internal Control                                                                      Page 21
                                 Additionally, there were no software changes to the GL system for fiscal year 2005.
                                 Therefore, we have removed this as a reportable condition.

                      OTHER MATTERS
                      Federal Managers' Financial Integrity Act (31 U.S.C. 3512) (FMFIA)

                      OMB Circular No. A-123, Management Accountability and Control, provides the reporting
                      guidelines for the FMFIA. OMB Circular No. A-123 states that annually, by December 31, the
                      head of each executive agency submit to the President and the Congress (i) a statement on
                      whether there is reasonable assurance that the agency's controls are achieving their intended
                      objectives, (ii) a report on material weaknesses in the agency controls, and (iii) whether the
                      agency's financial management systems conform with government-wide requirements.

                      OMB Bulletin No. 01-02 requires that the auditor's report on internal control "identify those
                      material weaknesses disclosed by the audit that were not reported in the reporting entity's
                      FMFIA report." FEC's FMFIA report dated October 4,2005 reports that FEC management did
                      not identify material weaknesses, but acknowledged the FEC fiscal year 2004 Independent
                      Auditor's Report on Internal Control included material weaknesses. FEC disagreed with the
                      material weaknesses identified in the internal control report, and therefore, did not prepare a
                      report on material weaknesses, including agency plans to correct the material weaknesses and
                      progress against those plans in the FMFIA report submitted.



                      In addition to the material weaknesses and reportable conditions described above, we noted
                      certain matters involving internal control and its operation that we reported to the management of
                      FEC in a separate letter dated November 7,2005.

                      This report is intended solely for the information and use of the management of FEC, FEC
                      Ofice of Inspector General, OMB, and Congress, and is not intended to be and should not be
                      used by anyone other than these specified parties.




                     Calverton, Maryland
                     November 7,2005




Independent Auditor's Report on Internal Control                                                                       Page 22
                    B! R2zk!mLL* 

                              c.nuw N      Y c kc-   LC u k n U




                                  Independent Auditor's Report on Compliance with Laws and Regulations

                    To the Inspector General of the 

                     Federal Election Commission 


                   We have audited the financial statements of the Federal Election Commission (FEC) as of and
                   for the year ended September 30,2005, and have issued our report dated November 7,2005. In
                   our report, our opinion was qualified for the effects of adjustments, if any, as might have been
                   necessary had we been able to perform adequate audit procedures on the allocation of program
                   costs in the statement of net cost. Except as described above, we conducted our audit in
                   accordance with auditing standards generally accepted in the United States of America; the
                   standards applicable to financial audits contained in Government Auditing Standard, issued by
                   the Comptroller General of the United States; and Offtice of Management and Budget (OMB)
                   Bulletin No. 01-02, Audit Requirementsfor Federal Financial Statements, as amended.

                   The management of FEC is responsible for complying with laws and regulations applicable to
                   FEC. As part of obtaining reasonable assurance about whether FEC's financial statements are
                   free of material misstatements, we performed tests of its compliance with certain provisions of
                   laws and regulations, noncompliance with which could have a direct and material effect on the
                   determination of financial statement amounts, and certain other laws and regulations specified in
                   OMB Bulletin No. 01-02. We limited our tests of compliance to these provisions and we did not
                   test compliance with all laws and regulations applicable to FEC.

                   The results of our tests of compliance with laws and regulations described in the preceding
                   paragraph disclosed no instances of noncompliance with the laws and regulations that are
                   required to be reported under Government Auditing Stanhrds and OMB Bulletin No. 01-02.

                   Providing an opinion on compliance with certain provisions of laws and regulations was not an
                   objective of our audit, and accordingly, we do not express such an opinion.

                   We noted certain immaterial instances of noncompliance that we have reported to management
                   of FEC in a separate letter dated November 7,2005.

                   This report is intended solely for the information and use of the management of FEC, FEC
                   Oflice of Inspector General, OMB and Congress, and is not intended to be and should not be
                   used by anyone other than these specified parties.



                   Calverton, Maryland
                   November 7,2005

                   Ccnt&     I
                   404 1 Powdtr,.\fifl b
                                     d ,Jxdt 4 10
                   Cubrrtor~,bfaglot~d
                                     20.70f J106
                   tcl: 301-931-2050
                   hx:301-931-1710                                                 23 of 23
                                                                  Ofticur   1.1   14 atnicl; und Wmshmst~,n.DC




                                                                                                                       Page 23
Independent Auditor's Report on Compliance with Laws and Regulations
                     Management Comments and Response to the Inde~endentAuditor's Report
                    EXECUTIVE SUMMARY

                    This year the independent auditas, Clifton Gunderson (CG), identified four material weakness
                    (cost accounting system and processes, custodial receipts, general praperty and equipment and
                    information technology) and two reportable conditions (financial reporting and payroll). While
                    area for improvement exists, the FEC fundamentally disagrees with several of CG's findings.
                    The FEC has made significant progress in addressing the material weaknesses and reportable
                    conditions identified last year. We demonstrated the improvements made throughout the
                    financial and information technology (IT) areas, and yet very little improvementwas recognized.

                    We firmly believe that the FEC improved its fjnancial reporting and IT policies and procedures,
                    both in response to audit findings and in compliance with all laws andregulations. Following
                    are specific highlights:

                       a	   Cost allocation methodology - although the process is manual, it meets the flexible
                            standards allowed far in this area. There were no changes in the cost allocation
                            methodology from last year to this year. Yet, last year it was not a material weakness and
                            this year it not only was a material weakness, it was enough to qualify a statement. A
                            new system will be implemented in early FY 2006. Management found it was neither
                            cost effective nor practical to implement the syskm so close to the end of the fiscal year.
                            The new system will ensure accurate and more efficient processing.

                            Managerial cost accounting - should not be classified as a material weakness because the
                            critical elements of SFFAS No. 4 have been met.

                            Custodial receipts - the process we had in place was sufficient given the nature of the
                            activity. For FY 2006 we require monthly, stmdardized reports from the relevant
                            divisions.

                       a	   Generalproperty and equipment - we believe that none of the weaknesses cited by CG,
                            either alone or collectively, are substantial enough to warrant classification as a material
                            weakness.

                            Information Technology - none of the reportable conditions in the area of IT, either
                            individually or collectively, rise to the level of material weakness. The FEC meets the
                            standards set forth in all applicableIT standards and regulations.

                   Most important, any issue noted by CG was detected within a timely period by employees in the
                   normal course of performing their assigned functions and, therefore, by definition does not
                   constitute a material weakness.




Management Comments and Response to the Independent Auditor's Report 	                                                 Page 24
                   Following are the FEC's responses to and comments on the auditor's report on internal control.
                   Clifton Gunderson (CG) also provided a report on compliance with laws and regulations. They
                   found that the FEC was in compliance with laws and regulations.

                   The FEC is proud of the significant progress made over the past fiscal year in terms of
                   strengthening our inkma1 controls. Such strides have beennoted both by the Inspector General
                   and the independent auditors. Fully mindful of the IG's and auditor's comments from the
                   previous year, we took a critical look at the issues and prioritized them. Most findings in the
                   finance area were resolved in FY 2005. For example, in prior years it had taken us up to three
                   weeks to prepare quarterly financial reports. Now we are able to complete this process in a
                   matter of days. We were also able to improve our timeliness with respect to reconciliations. Not
                   only have we become more efficient at producing financial reports, we have become more
                   effective. This year we only had to make six "on top" adjustments; down from thirteen last year.

                   We implemented several process changes. We standardized and formalized reconciliation
                   processes. We added purchase order reconcilidon, relationship testing and property modules to
                   automate our system processes and reduce error. All of these improvements have been formally
                   documented. The Accounting Policy and Procedu~manual was changed and formally reviewed
                   and approved by the Chief Financial Officer. The manuals have allowed for better cross training
                   of .staff to ensure that no process is fully dependent on one employee.

                   The overriding issue for the FEC's comments is what constitutes a material weakness. GAO
                   defines material weakness as ". . . reportable cmditions in which the design or operation of one
                   or more of the internal control components does not reduce to a relatively low level the risk that
                   misstatements in amounts that would be material in relation to the financial statements being
                   audited may occur and not be detected within a timely period by employees in the normal course
                   of performing their assigned functions." Reportable conditions "are matters coming to the
                   auditor's attention that, in the auditor's judgment, should be communicated because they
                   represent significant deficiencies in the design or operation. . .." (OMB Bulletin 01-02).

                   MATERIAL WEAKNESSES
                   I. 	   Cost Accounting System and Processes

                          A. 	   Cost Allocation Methodology (Repeat Finding) (NFR #37, #38, #40)

                          Recommendations

                          1. 	   Establish formal and comprehensive cost allocation methodology and related
                                 policy and procedures.




Management Comments and Response to the Independent Auditor's Report 	                                                  Page 25
                          FEC RESPONSE:
                          The FEC established and provided the auditors with a simple, straightforward crosswalk,
                          supporting the basis of allocations. The FEC also established and p ~ v i d e dthe auditors
                          with cost allocation methodology and related policy and procedures.

                          2. 	   Cross-train employees to minimize the risks of major interruptions in normal
                                 business operations.

                          FEC RESPONSE:

                          The FEC cross-trained three employees on the cost allocation process. The FEC
                          provided evidence to the auditors that personnel were crossed trained and able to perform
                          the cost-allocation process.

                          3. 	   Establish a review process wherein a person, other than the preparer, reviews the
                                 work performed to ensure accuracy and propriety.

                          FEC RESPONSE:

                          The FEC established a review process for the cost allocation process. The FEC provided
                          evidence to the auditors that a review process was in place and was followed in the cost-
                          allocation process.

                          4. 	   Maintain audit trails to support the allocation methodology and amounts.

                          FEC RESPONSE:

                          The FEC maintained an audit trail that supports the allocation methodology and provided
                          the audit trail to the auditors.

                      B. Managerial Cost Accounting (Repeat Finding)

                         Recommendation:

                          5. 	   Evaluate the functional requirements for the new cost accounting system to ensure
                                 that at least, the minimum level of cost accounting required in SFFAS No. 4 is
                                 attained.



                         The FEC disagrees with this finding and its classification as a material weakness. SFFAS
                         No. 4 gives agencies the flexibility to devise methods for allocating costs that are
                         appropriate for the agency's size, mission and nature of ccsts incurred, so long as the
                         method is reliable and timely. The FEC's system provides sufficient information to both
                         high level management and program managers on the full cost of federal programs, our




                                                                                                                        Page 26
Management Comments and Response to the Independent Auditor's Report 	
                            activities, and outputs. The FEC system meets the fundamental elements of managerial
                            cost accounting as set forth in SFFAS No. 4. It: (1) accumulates and reports FTE usage
                            rates on a regular basis for management information purposes; (2) establishes
                            responsibility segments to match costs with outputs; (3) determines fill costs of
                            government goods and services; and (4) uses appropriate costing methodologies to
                            accumulate and assign costs to outputs. The new system will meet the same
                            requirements.

                     11.	   Administrative Fines, Civil Penaltie and Miscellaneous Receipts (Custodial
                            Receipts) (New Condition) (NFR #19,#36, #38)

                            FEC RESPONSE:

                            While we are cognizant of the issues preseIlted in this finding, we do not believe it
                            warrants classification as a material weakness. Although the FEC recognizes this as an
                            area that needs to be strengthened with more fonnal processes, the FEC does have
                            adequate systems and controls in place to ensure custodial receipts are properly
                            accounted for and timely recorded.

                            During FY 2005, the relevant divisions reported internally on a quarterly basis. Take for
                            example the Administrative Fine program. After an initial attempt to collect debts,
                            delinquent civil penalties are referred to Treasury. This requires significant reporting and
                            documentation. The FEC and Treasury amunts must balance each month, and this
                            reconciliation serves as an external check.

                            Of the total in-house serviced debt outstanding at September 30, 2005, over 70% of it
                            accrued in September 2005. Thus, most of the accounts receivable (AR) balance could
                            not have been entered into the general ledger (GL) before year end. The increase in in-
                            house serviced debt was due in part to the fact that Treasury put ahold on submission of
                            collections. CG did not propose any adjustments to any balances recorded in GL.
                            Therefore, FEC believes it is unlikely material misstatements could have occurred in this
                            area and not have been detected in a timely manner by the staff in the routine
                            performance of their jobs.

                            While we believe that quarterly reporting was sufficient given the nature of the activities,
                            we have implemented monthly reporting for FY 2006. We are in the process of
                            developing a standard format for each division to use. Each month all internally
                            generated reports will be reconciled to the GL and each division will be provided a status
                            report. FEC will continue reconciling cash and receivables with Treasury and adding
                            aging categories to facilitate review by management and preparation of the quarterly
                            report on receivables to Treasury. All of these changes, including a description of how
                            the Allowance for Uncollectible Accounts is calculated, will be put into the Accounting
                            Manual once they are finalized.




Management Comments and Response to the Independent Auditor's Report 	                                                Page 27
                             6. 	   Establish and implement policy and procedures ensuring communication and
                                    coordination between program offices and finance office on activities with
                                    financial impact. The policy should also clearly establish the FEC's revenue
                                    recognition policy. The finance office should design a standard report outlining
                                    all the necessary information to record the financial activities. The report should
                                    be prepared and submitted timely at least monthly by the program offices to the
                                    finance office.

                             m C RESPONSE:
                             A policy will be developed and distri'buted to program offices for monthly reporting.
                             Expected completion: November 30,2005.

                             7. 	   Document the policy and basis for the allowance for uncollectible accounts.

                             FEC RESPONSE:
                             Procedures will be developed and included in the Accounting Policy and Procedures
                             Manual. Expected completion: November 30,2005.


                      ,111.	 General Property and Equipment (Property) (Modified Repeat Finding) (NFR #38,
                             #39, #32)

                             FEC RESPONSE:
                             The FEC agrees with this comment in general, but not its classification as a Material
                             Weakness. The FEC made significant strides in the property accounting area in FY 2005.
                             Furthermore, the FEC did not have to make any material adjustments to the GL or
                             schedulesprovided to CG as a result of the audit.

                             Significant improvements from last year's report on intemal controls include:

                                        A new property system was implemented in September 2005 which
                                        eliminated difficulty in calculating depreciation which stemmed from
                                        programming issues with the prior contractor;
                                        Software-indevelopmentwas tracked and reported quarterly;
                                        All assets were recorded at invoice values (vs. estimates for some last year);
                                        and
                                        Exceptions to intemal control sample items decreased significantly

                             As noted to CG, the new properly system facilitates preparation of audit schedules and
                             related notes. Moreover, the new system, along with improved policies and procedures to
                             be implemented in FY 2006, will: 1) help link individual assets to bulk purchases by PO




Management Comments and Response to the IndependentAuditor's Report 	                                               Page 28
                          number; 2) help identify new assets that meet the capitalization criteria; and 3) capture
                          additional data regarding custody and location of assets. For example, all new computers
                          made as part of a bulk purchase were entered in the system with the associated purchase
                          order and reports were developed to list individual items. These improvements should
                          result in a more seamless integration between the inventory system and the identifying,
                          reporting and tracking of capitalized assets to the balances in the general ledger. FEC is
                          also continuing to review all inventory items to complete the information coded in the
                          system.

                          The process of conducting a physical inventory of assets for FY 2005 was contracted out
                          to a vendor. The contractor used a bar code scanner for all assets and uploaded the
                          information to the property system. The general ledger balance was reconciled to the
                          balances in the property system and the reconciliation was provided to CG. The physical
                          inventory did not disclose any capitalized assets that needed to be adjusted. In FY 2006
                          specific procedures will be written for the contractor and FEC staff to use and assist with
                          the reconciliation.

                          FEC software capitalization policy is in compliance with SSFAS No. 10. The FEC
                          believes the process to identi@ software in progress and completed software in progress
                          was adequate and that all such software was identified and recorded correctly. CG has
                          not provided specifics as to why it believes FEC is not in compliance with SFFAS No.
                          10, which was taken almost verbatim fiom the standard. FEC is continuing to develop
                          more formalized methods of notifications for various property events to trigger entries in
                          the general ledger. This will include coding training in FY 2006 for affected offices. The
                          timeliness of completed construction was more a function of a delay in obtaining
                          adequate information from General Services Administration (GSA) than a lack of internal
                          notifications. FEC notes these types of tramactions were all recorded accurately well
                          before the year end statements were prepared.

                          The FEC is only aware of problems with nine receiving reports, not twelve as indicated in
                          the report. Most of these were for the lack of descriptions on the receiving report, which
                          is not required by FEC. We agree with one noted problem where the approving official
                          cited the work authorization number instead of the invoice number on the receiving
                          report; however, the invoice was paid correctly.

                          Recommendations:

                          8. 	   Reconcile the total of the individual property items in the property system to the
                                 bulk purchase total recorded in the books to ensure canpleteness of the property
                                 system records.

                          FEC RESPONSE:

                          The FEC implemented a new property system to accomplish this. For example, all new
                          computers made as part of a bulk purchase were entered in the system with the associated
                          purchase order and reports were developed to list individual items. The FEC maintains




Management Comments and Response to the Independent Auditor's Report 	                                                  Page 29
                           that for each individual asset of a bulk purchase, the reconciliation of cost between the
                           general ledger and the inventory system is not necessary and will not be accurate due to
                           fieight andlor installation costs which are not recorded at the individual asset level. The
                           damagelloss of an individual asset of a bulk purchase would not materially impact the
                           balances in the general ledger. Bulk buys arerecorded in the general ledger at the actual
                           total invoice cost. The individual items are tracked in the physical inventory system and
                           are inventoried annually.

                           9. 	    Document physical inventory procedures, results, and reconciliation and maintain
                                   the documentation for audit trail purposes.

                           FEC RESPONSE:
                           Procedures will be developed for the next inventory which is planned for FY 2006. The
                           reconciliation will be maintained for audit.

                           10. 	   Revise the software capitalization policy to comply with SFFAS No. 10.

                           FEC RESPONSE:
                           The software capitalization policy is in canpliance with SSFAS No. 10. No specific area
                           of non compliance was identified by CG.

                           11. 	   Enforce compliance and consistent implementation of policies and procedures
                                   related to completing receiving reports and the review and approval of obligating
                                   memos or documents.

                           FEC RESPONSE:
                           As noted in last year's response and throughout this year's fieldwork, the description on
                           the receiving report is an optional, not a required, field. In FY 2006 the form and
                           procedures will be rewritten to make this clearer.

                           12. 	   Establish a standard process and policy where program offices are required to
                                   notify the finance office of any property acquisition or disposition with
                                   accounting impact to ensure proper and timely recording of the transaction.

                           FEC RESPONSE:
                           FEC agrees with this recommendation and has already started to write the policy and
                           develop necessary procedures and forms. Expected completion: December 31,2005.




Management Comments and Response to the Independent Auditor's Report 	                                               Page 30
                    IV. 	
 Information Technology (IT)

                           FEC RESPONSE:

                           The FEC does not agree that the reportable anditions in the IT area reach the level of a
                           material weakness. In conjunction with the Financial Statements Audit of the FEC, four
                           areas of Information Technology were examined for material weaknesses. The outcome
                           of the audit in IT revealed a number of reportable conditions, none of which,
                           individually, rise to the level of material weakness. FEC Management is also of the
                           opinion that the collective "weight" of these reportable conditions does not together result
                           in a material weakness. The reason for tlis position is that reportable conditions have
                           been recognized and corrective actions have been and are being taken. The cost benefits
                           test may be used for portions of these conditions, but for the majority the FEC has
                           initiated corrective actions, some of which predate the audit.

                           FEC Management has also indicated our position on the FEC exemption from the
                           Paperwork Reduction Act, which also exetrpts the FEC from many of the related and
                           underlying statutes and regulations. We agree that best practices and sound management
                           controls justify the use of some of the recanmendations made during the audit in the area
                           of IT control (many of which the FEC as implemented already). However, the FEC
                           strongly believes that these recommendations, either singularly or collectively, do not rise
                           to the level of material weaknesses. In addition, the FEC maintains that the agency
                           cannot be held to guidance and criteria identified in studies and analyses as if these were
                           standards that are required to be adhered to.

                           Finally, the FEC continues to maintain that it is not appropriate to find the existence of
                           financial management material weaknesses for systems and applications that do not
                           directly impact on the accuracy and security of information used in the FEC financial
                           statements.

                           A. Entity-Wide Security Program

                           Recommendations:

                           13. 	   Implement a framework of policies and standards to mitigate risks associated with
                                   the information resources management.

                           FEC RESPONSE:

                           As a vital component of the Information Systems Security Program Policy (ISSPP) 58A,
                           the FEC developed and approved sub-policy 58-2.1: Risk Management Policy. This
                           policy establishes a framework of procedures and standards to mitigate risks associated
                           with the management of information resources. The Risk Management Policy states that
                           external risk assessments should be performed within the recommended 3 year period;
                           however, current budgetary restraints have prevented this.




Management Comments and Response to the Independent Auditor's Report 	                                               Page 3 1
                         FEC management completed the Statement of Work (SOW), received proposals from
                         three vendors and is currently reviewing the proposals. In addition the FEC has allocated
                         $250,000 in FY 2006 (pending no further budgetary constraints) to partially accomplish
                         this goal. Until greater resources are allocated, the FEC shall continue to conduct its own
                         internal reviews such as those specified in its Security Review Policy.

                          14. 	   Complete the documentation, approval and implementation of an entity-wide
                                  security program plan.



                         In November 1997, the FEC established Directive 58, outlining the Commission policy
                         on the control of Commission software and the use of agency computers. This Directive
                         formed the basis of the Agency's computer security program. This Directive has been
                         enhanced and expanded incorporating the latest guidance and best pmctices provided by
                         NIST. In December 2001 Directive 58 was updated by establishing an Information
                         Systems Security Officer. In April 2004 Information System Security Program Policy
                         58A was developed and the final policy was approved by the Chief Information Officer
                         in September 2004. The implementation of the FEC entity wide security program plan
                         occurred on October 2004, when FEC issued a memo infonning all
                         employees/contractors that "Information System Security Program Policy" Policy
                         Number: 58A was approved and should be adhered to by all employees/contractors.

                         15. 	    Develop and implement security plans for all major applications and MCGSS as
                                  part of a risk mitigation strategy.

                         FEC RESPONSE:

                         The FEC has provided the financial auditors with system security plans for all of its
                         financial systems and four non-financial systems for a total of seven. The financial
                         auditors have been provided with planned target dates for        ~
                                                                                         remaining four non-
                         financial systems.

                         16. 	    Ensure that Resource Classifications inFEC's security plans accurately reflect the
                                  risk and vulnerabilities of FEC systems.



                         The FEC has implemented an entity-wide secwity program plan that specifies that
                         external risk assessments should be performed within the recommended 3 year period.
                         FEC management has completed the Statement of Work (SOW) has received proposals
                         from three vendors and is currently reviewing the proposals. In addition the FEC has
                         allocated $250,000.00 in fiscal 2006 (pending no further budgetary constraints) to
                         partially accomplish this goal. Until greater resources are allocated, the FEC shall
                         continue to utilize the considerable knowledge, skills and experience of the Infonnation
                         Technology Division to provide input for resource classifications.




                                                                                                                       Page 32
Management Comments and Response to the Independent Auditor's Report
                            17. 	   Complete the implementation of the program for the continuous monitoring and
                                    evaluation of the computer security policy and control effectiveness.

                            FEC RESPONSE:

                            The FEC has implemented an entity-wide security program plan that specifies the
                            establishment of a program for the continuous monitoring and evaluation of the computer
                            security policy and control effectiveness. To this end the FEC has developed and
                            implemented 58-2.1 1 Security Review Policy that specifies a minimum set of review
                            activities such as: annual external penetration testing; disaster recovery testing; a review
                            of incident response procedures; a network vulnerability study; a code review of one
                            Major Application and a review of access mntrol procedures. FEC has provided the
                            auditors with documentation and evidence that the specified activities did occur.

                            18. 	   Conduct risk assessments at least every three years as part of an overall strategy to
                                    mitigate risks associated with its information technology environment.

                            FEC RESPONSE:
                            The FEC has implemented an entity-wide sectnity program plan that specifies that
                            external risk assessments should be performed within the recommended 3 year period.
                            FEC management completed the Statement of Work (SOW), received proposals from
                            three vendors and is currently reviewing the proposals. In addition the FEC has allocated
                            $250,000 in FY 2006 (pending no further budgetary constraints) to partially accomplish
                            this goal. Until greater resources are allocated, the FEC shall continue to conduct its own
                            internal reviews such as those specified in its Security Review Policy.

                            19. 	   Certify that the major applications and MCGSS are operating according to FEC's
                                    security requirements.

                            FEC RESPONSE:

                            The FEC has implemented an entity-wide security program plan that specifies that the
                            certification of its major applications and mission critical general support systems are
                            operating according to FEC's security requirements. These certifications will occur upon
                            the completion of external risk assessments In lieu of such assessments, FEC has
                            leveraged the considerable knowledge, skills and experience of the Information
                            Technology Division senior management.

                            20. 	   Strengthen FEC's program to document corrective actions and verifj. that
                                    weaknesses identified have been addressed. Ensure and document that
                                    recommendations from the most recent network security review have been
                                    implemented.




Management Comments and Response to the Independent Auditor's Report 	                                                Page 33
                          FEC RESPONSE:

                          The FEC has completed the majority of recommendations from the prioryear's audit. In
                          accordance with its risk management strategy, the FEC has assessed the risk associated
                          with these deficiencies and has documented, developed and implemented compensating
                          controls or has documented and developed multi-fiscal-year mitigation strategies to
                          counteract the specified deficiency. These compensating controls andlor multi-fiscal-
                          year mitigation strategies take into account that all associated risk may not be completely
                          eliminated during the current audit year, resulting in some residual risk. Any residual
                          risk has been accepted by the appropriate system owner.

                          B. 	    Controls to Protect Information

                          Recommendations:

                          21. 	   Create a new GL system application role to give employees with necessary and
                                  appropriate access rights to fulfill their job responsibility.

                          FEC RESPONSE:

                          The FEC has recognized the need to further refine the granularity of GL's access control
                          matrix and has developed a system application role with appropriate access rights for
                          employees to fulfill their job responsibility. The FEC is currently testing the system
                          application role to reduce the possibility of disrupting critical bwiness functions. The
                          financial auditors have been provided planned target dates for the implementation of the
                          system application role.

                          22. 	   Monitor and record visitor access to the data center.

                          FEC RESPONSE:

                          Individuals requiring an escort within the FEC building are always escorted by an
                          authorized employee when they enter the FEC computer facilities. The FEC has
                          historically used the Kastle Key system to electronically log when someone enters the
                          computer facility and will continue to do so. However, ITD has implemented the use of a
                          written log for all escorted persons who enter the facility, even though we believe it is a
                          manual redundant system.

                          23. 	   Use access request forms to document user access rights and periodically review
                                  the access for appropriateness.




Management Comments and Response to the Independent Auditor's Report 	                                                  Page 34
                           FEC RESPONSE:

                           The FEC has instituted a process that utilizes electronic mail to request, approve and
                           document user access rights. Access rights are periodically reviewed in accordance with
                           58-2.11 Security Review Policy.

                           24. 	 Develop mitigating controls to ensure that GL system passwords are in agreement
                                 with FEC policy.

                           FEC RESPONSE:
                           The current version of Peoplesoft does not contain a facility for the automated
                           enforcement of passwords. The FEC is aware of this vulnerability and the risk associated
                           with this version of PeopleSoft's lack of automated authentication enforcement. The
                           FEC has implemented a series of cornpensatis controls consisting of additional user
                           awareness training, policy issuance and manual enforcement to mitigate associated risk.
                           The FEC understands and accepts the residual risk until an automated solution can be
                           found.

                           25. 	 Automatically log network activity as required by theAudit Events Standards.

                           FEC RESPONSE:
                          The Audit Event Standards have been modified, and the FEC in now in compliance with
                          these standards.

                          26. 	 Institute a process to manually review logs of users using budgetary ovemdes
                                where the reviewer is an individual who does not have access to utilize the
                                ovemdes.

                           FEC RESPONSE:

                          Please refer to the Accounting Officer response in NFR-10.

                          27. 	 Periodically review the firewall rule set for appropriateness.

                          FEC RESPONSE:

                          The FEC does periodically review the firewall rules. The rules were reviewed in May
                          2005. 


                          28. 	 Periodically review LAN user accounts and disable unnecessary user accounts.




Management Comments and Response to the Independent Auditor's Report 	                                           Page 35
                            FEC RESPONSE:

                            The System Administrators review computer accounts periodically and delete the
                            accounts that have not been accessed within 90 days. The user accounts are also reviewed
                            and deleted using the "Hiring Report" that is produced by HR. In addition, all user
                            accounts that have not been accessed within 90 days will be disabled.

                            C. 	    Contingency Plan

                           Recommendations:

                            29. 	   Perform a Business Impact Analysis to fomally identify and prioritize all critical
                                    data and operations on FEC's networks and the resources needed to recover them
                                    if there is a major intemption or disaster. Ensure that emergency processing
                                    priorities are established to assist in managing disaster situations more effectively
                                    for the network and include business owners in the discussion to determine how
                                    much backup data is needed on-hand to minimize the impact of a disaster.

                            FEC RESPONSE:

                           The BIA is a new requirement, and we do not have funds in the 06 Budget. Funds will be
                           requested in the 2007 Budget.

                           The plan covers all major Financial Applications and does provide a detailed restoration
                           time for the Peoplesoft restoration process. The other major application, Comprizon Buy,
                           is a less complicated restoration and has a much shorter relative time frame for
                           installation, making a detailed time breakdown unnecessary.

                           30. 	    Establish alternative processing site(s) for FEC's operations in the event of a
                                    disaster and ensure that an operational mechanism exists to update the disclosure
                                    database in the event that the FEC database is unavailable to replicate the
                                    disclosure database resident at the offsite location.

                           FEC RESPONSE:

                           Currently an alternate processing site for operations is not in the budget, and we could not
                           afford an alternate site.

                           31. 	    Develop a Continuity of Operations Plan (COOP) to support the continuation of
                                    the FEC's core mission in the event of a disaster that renders the FEC's facilities
                                    unusable.

                           FEC RESPONSE:

                           The COOP plan is a new requirement that was raised by the audit this year, and funds
                           will be requested in the 2007 budget.




Management Comments and Response to the Independent Auditor's Report 	                                                 Page 36
                            32. 	   Develop and document a comprehensive contingency of operations plan of FEC's
                                    data centers, networks and telecommunication facilities.

                            FEC RESPONSE:

                           This has been done. Please see the disaster recovery plan

                           D. 	 Software Development and Change Controls
                           Recommendation:

                            33. 	   Fully implement the System Development Life Cycle Methodology.

                           FEC RESPONSE:

                           Establishing controls over the modification of application software programs is an
                           industry Best Practice and one the FEC agrees with. The FEC has instituted policies,
                           procedures and techniques that help make sure all programs and program modifications
                           are properly authorized, tested and approved. This has been accomplished through the
                           implementation of the SDLC and the associated policies and procedures (for example: the
                           Change Management Policy, Requirements Procedure, Release Procedure, Change
                           Management Procedure, etc.) The SDLC has been fully implemented; however, we have
                           found that there are a couple instances where the SDLC does not match the actual
                           practice. For example, changes are documented using ClearQuest (an industry standard
                           for managing changes). However, the SDLC mentions documenting changes using a
                           Change Implementation Notice. As a result ofthis difference the FEC is in the process of
                           making sure the SDLC reflects the actual practice. To reiterate, the FEC does have
                           procedures and controls in place to ensure programs and program modifications are
                           properly authorized, tested and approved, and the FEC is in the process of making sure
                           those procedures and controls are identified properly in the SDLC.

                    REPORTABLE CONDITIONS

                    V. 	 Financial Reporting (Modified Repeat Finding)
                           A. General Ledger (GL) System Setup and Posting Model Definitions (Modified
                           Repeat Finding) (NFR #41)

                           Recommendation:

                           34. 	    Ensure that corrections made to the posting logic comply with the USSGL and
                                    that the USSGL accounts and posting logic are updated as changes to USSGL are
                                    issued.




Management Comments and Response to the Independent Auditor's Report 	                                           Page 37
                            As noted, FEC disagrees with this as a Reportable Condition. However, FEC is in full
                            compliance with this in FY 2006.

                            C. 	    Integrated Financial Management System (Repeat Finding) (NFR #40)

                            FEC RESPONSE:

                            While the FEC is pleased that CG has downgra8d this from a material weakness to a
                            reportable condition, we still disagree with this classificatim. To be fully integrated, a
                            system must use the same information in preparing performance and cost allocation
                            reports and in this regard, FECYssystems are fully integrated. Even if one were to adopt
                            a more broad definition of integration, the FEC is compliant with OMB and GAO
                            standards. CG is fully aware that a budget preparation and MIS system will be fully
                            operational and integrated with the financial system as of January 1, 2006. The FEC
                            implemented these new systems even though OMB guidance and GAO standards do not
                            require agencies to have totally integrated systems.

                            Recommendation:

                            36. 	   Continue to assess the degree of integration necessary to have a single, unified
                                    financial system by evaluating the functional requirements and the costs and
                                    benefits of integrating the financial reporting, property and equipment, receivable,
                                    and the cost systems with the GL system;

                            FEC RESPONSE:

                            The FEC continues to perform a cost-benefit analysis to determine whether total
                            integration of all budget, procurement, property and financial systems is worth the cost
                            for a small federal agency. Based upon the accuracy and reliability of our current
                            financial systems, the FEC is comfortable with the risks of the current interfaces we have
                            developed between the systems.

                            Additionally, the FEC has requested funding in the FY 2006 and FY 2007 budgets to
                            fully examine our finance system requirements, with the objectives ranging from a
                            system upgrade to a complete system replacement that would be fully integrated with the
                            FEC's budget, procurement, inventory, and HR system. The FEC has been meeting with
                            US Government agencies that have been selected as Centers of Excellence (COE), as
                            well representatives of the Office of Management and Budget to refine our quest for a
                            integrated financial management system.




Management Comments and Response to the Independent Auditor's Report 	                                               Page 38
                            FEC RESPONSE:

                            As noted, FEC disagrees with this as a Reportable Condition. However, FEC is in full
                            compliance with this in FY 2006.

                            C. 	   Integrated Financial Management System (Repeat Finding) (NFR#40)

                            FEC RESPONSE:

                            While the FEC is pleased that CG has downgraded this from a material weakness to a
                            reportable condition, we still disagree with this classificatim. To be fully integrated, a
                            system must use the same information in preparing performance and cost allocation
                            reports and in this regard, FEC's systems are fully integrated. Even if one were to adopt
                            a more broad definition of integration, the FEC is compliant with OMB and GAO
                            standards. CG is fully aware that a budget preparation and MIS system will be fully
                            operational and integrated with the financial system as of January 1, 2006. The FEC
                            implemented these new systems even though OMB guidance and GAO standards do not
                            require agencies to have totally integrated systems.

                            Recommendation:

                            36. 	 Continue to assess the degree of integration necessary to have a single, unified
                                  financial system by evaluating the functional requirements and the costs and
                                  benefits of integrating the financial reporting, property and equipment, receivable,
                                  and the cost systems with the GL system;

                            FEC RESPONSE:

                            The FEC continues to perform a cost-benefit analysis to determine whether total
                            integration of all budget, procurement, property and financial systems is worth the cost
                            for a small federal agency. Based upon the accuracy and reliability of our current
                            financial systems, the FEC is comfortable with the risks of the current interfaces we have
                            developed between the systems.

                            Additionally, the FEC has requested funding in the FY 2006 and FY 2007 budgets to
                            fully examine our finance system requirements, with the objectives ranging from a
                            system upgrade to a complete system replacement that would be fully integrated with the
                            FEC's budget, procurement, inventory, and HR system. The FEC has been meeting with
                            US Government agencies that have been selected as Centers of Excellence (COE), as
                            well representatives of the Office of Management and Budget to refine our quest for a
                            integrated financial management system.




Management Comments and Response to the Independent Auditor's Report 	                                              Page 39
                   VI. 	   Payroll (Modified Repeat Finding)

                           FEC RESPONSE:

                           The FEC believes it has strong controls in the payroll area, bd as in all areas we believe
                           controls can be improved. The FEC improved several important control processes in the
                           payroll area in FY 2005. Compliance with requirements to submit leave verification
                           reports requested from timekeepers saw improvement in the latter part of the year.

                           Recommendations:

                           37. 	 Implement procedures to ensure that leave adjustments are completely processed
                                 and transmitted to the service provider.

                           FEC RESPONSE:

                           Instructions will be issued in early FY 2006 to ensure staff is clear on this issue. Another
                           technician will initial the changes have been made correctly.

                           38. 	   Maintain in the personnel files all payloll deduction authorization forms initiated
                                   through FEC, i.e., not done directly by the employee with a service provider.



                           Finance and HR met in May 2005 to coordinate the roles of the respective offices. Most
                           of the documents cited as missing by CG were subsequently located. More attention will
                           be paid to this in FY 2006, including spot checks by management.


                           39. 	   Ensure that timekeepers: perform the monthly reconciliation between leave
                                   balances reported in its records and the service provider's records; and submit the
                                   bi-weekly leave balance certification to the finance office timely.

                           FEC RESPONSE:

                           As noted to CG during the audit, compliance with this requirement increased
                           significantly during the latter part of the fiscal year and is continuing in FY 2006. Finance
                           management will also have a technician audit one timesheet for completeness per
                           timekeeper for each pay period. Results will be documented.

                           40. 	   Implement procedures for ensuring all payroll and personnel documents are
                                   properly completed and authorized before payroll data is transmitted to the
                                   payroll service provider for processing.




Management Comments and Response to the Independent Auditor's Report 	                                                     Page 40
                          FEC will place more emphasis on this in FY 2006 including sampling of timesheets for
                          completeness and accuracy.

                          41.    Consider automating payroll processing to decrease the risk of errors.

                          FEC RESPONSE:

                          FEC is studying the merging of time and attendance with the management information
                          system. Part of that study wi1.l include whether it is feasible to further automate the
                          payroll process.

                   OTHER MATTERS 

                   Federal Managers' Financial Integrity Act (31 U.S.C. 3512)(FMFIA)

                   OMB Circular No. A-123, Management Accountability and Control, provides the reporting
                   guidelines for the FMFIA. OMB Circular No. A-123 states that annually, by December 31, the
                   head of each executive agency submit to the President and the Congress (i) a statement on
                   whether there is reasonable assurance that the agency's controls are achieving their intended
                   objectives, (ii) a report on material weaknesses in the agency controls, and (iii) whether the
                   agency's financial management systems conform with government-wide requirements.

                  OMB Bulletin No. 01-02 requires that the auditor's report on internal control "identify those
                  material weaknesses disclosed by the audit that were not reported in the reporting entity's
                  FMFIA report." FEC's FMFIA repott dated October 4, 2005 reports that FEC management did
                  not identify material weaknesses, but acknowledged the FEC fiscal year 2004 Independent
                  Auditor's Report on Internal Control included material weaknesses. FEC disagreed with the
                  material weaknesses identified in the internal control report, and therefore, did not prepare a
                  report on material weaknesses, including agency plans to correct the material wealcnesses and
                  progress against those plans in the FMFIA report submitted.

                  FEC RESPONSE:

                  We believe that our annual asswance letter satisfies the requirements of A-123 for FY 2005.
                  OMB Circular A-123 Management's Accountability and Control states "[tlhe statement on
                  reasonable assurance represents the agency head's informed judgment as to the overall adequacy
                  and effectiveness of management controls within the agency." Whenmonitoring and evaluating
                  internal controls, A-1 23 clearly states that management should independently make the
                  determination as to whether any material weaknesses exist. The "auditor's reports" is only one
                  of ten possible sources.

                  We further believe that our documentation is sufficient under A-123. A-123 states "[algency
                  management should determine the appropriate level of documentation needed to support this
                  assessment." We are comfortable with our current level of documentation.




Management Comments and Response to the Independent Auditor's Report                                                Page 41
